      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




January 18, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Rollup Review of Impact on Medicare Program for Investment Income That
               Medicare Advantage Organizations Earned and Retained From Medicare Funds
               in 2007 (A-07-10-01080)


The attached final report provides the results of our rollup review in which we estimated the
financial impact on the Medicare program of investment income that Medicare Advantage
organizations earned and retained from Medicare funds in 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-07-10-01080 in all correspondence.


Attachment
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL


   ROLLUP REVIEW OF IMPACT ON
      MEDICARE PROGRAM FOR
     INVESTMENT INCOME THAT
MEDICARE ADVANTAGE ORGANIZATIONS
   EARNED AND RETAINED FROM
      MEDICARE FUNDS IN 2007




                         Daniel R. Levinson
                          Inspector General

                           January 2011
                           A-07-10-01080
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) finances the Medicare program through
the Federal Hospital Insurance (Part A) and Supplementary Medical Insurance (Part B) trust
funds. The assets of the trust funds are held in special-issue U.S. Treasury securities, which earn
interest income. The Medicare Part C program offers beneficiaries managed care options
through the Medicare Advantage program (formerly called Medicare+Choice), which is also
financed by the Part A and Part B trust funds.

Pursuant to the Social Security Act (section 1853(a)(1)(A), 42 U.S.C. § 1395w–23(a)(1)(A)),
CMS makes advance capitated payments (prepayments) to Medicare Advantage organizations
(MA organizations) for each enrollee at the beginning of each month. MA organizations may
invest these Medicare funds in interest-bearing instruments until the funds are needed to pay for
medical and administrative services. Federal law does not currently limit the ability of MA
organizations to retain as additional revenue the investment income earned on Federal funds.
MA organizations must submit, on an annual basis, bid proposals containing their anticipated
revenue requirements for providing medical services under each of their plans for the upcoming
year.

We issued an audit report (A-02-98-01005) to CMS on August 18, 2000, that identified more
than $100 million of investment income that MA organizations earned on Medicare funds of
approximately $20 billion for calendar year (CY) 1996. In that report, we noted that Federal
requirements governing the Federal Employees Health Benefits (FEHB) program limited the
ability of insurance companies participating in that program to generate and retain investment
income. Because Federal requirements did not limit the ability of Medicare+Choice
organizations to retain investment income, we recommended that CMS pursue legislation to
address the timing of Medicare’s prepayments to Medicare+Choice organizations or reduce the
payment rates by the amount of investment income. In its comments on that report, CMS
indicated that it did not intend to propose such legislation.

During CY 2007, CMS paid 457 MA organizations nationwide approximately $69 billion in
prepayments. As a followup to our previous audit, we performed audits at 50 MA organizations
nationwide to estimate the investment income earned from Medicare funds received in CY 2007
and thereby estimate the investment income that the 457 MA organizations earned.

OBJECTIVE

Our objective was to estimate the financial impact on the Medicare program of limiting the
ability of MA organizations to retain investment income earned on Medicare funds.

RESULTS OF REVIEW

Because Federal requirements governing the Medicare Advantage program do not limit the
ability of MA organizations to retain investment income earned on Medicare funds, the Medicare



                                                 i
program loses potential cost savings. Based on our reviews of 50 MA organizations, the
Medicare program continues to lose potential savings because in CY 2007 the 457 MA
organizations held Medicare funds for approximately 46 days before paying for medical services.
Specifically:

   •   If Federal requirements had been established to delay the prepayments to MA
       organizations until after the beginning of the beneficiary’s coverage period (similar to the
       FEHB program) by the same 46 days that the MA organizations held Medicare funds, the
       Medicare Part A and Part B trust funds could have earned approximately $450 million of
       interest income in CY 2007.

   •   Alternatively, if Federal requirements had been established to require MA organizations
       to reduce their revenue requirements in their bid proposals to account for anticipated
       investment income, the Medicare program could have saved an estimated $376 million
       that the 457 MA organizations earned in CY 2007.

In contrast to the Federal requirements that govern the Medicare Advantage program, the FEHB
program limits the ability of companies to retain as additional revenue the investment income
earned from Federal funds.

Neither of our legislative or regulatory recommendations from our previous audit report was
implemented: that CMS either address the timing of its prepayments to MA organizations or
reduce the payment rates by the amount of investment income that the MA organizations earned
in CY 1996.

In this context, MA organizations and CMS officials have stated that if either of our previous
legislative or regulatory recommendations were to be implemented, some MA organizations
would increase their bid proposals to recoup investment income that they would lose. If the MA
organizations were to increase their bid proposals to account for the proposed offsets, these
higher costs would be recognized in the bid proposals and could result in a possible decrease in
our estimated cost savings. However, this could provide greater transparency for program
officials. It should be noted that section 1103 of the Health Care and Education Reconciliation
Act of 2010, P. L. No. 111-152, has a provision to restrict the total amount of administrative
costs reimbursed by CMS to MA organizations. Consequently, this provision may discourage
MA organizations from increasing their future bid proposals to recoup investment income that
they would lose.

We therefore encourage CMS to study these audit results, consider the impact of the investment
income earned on Medicare funds, and review our conclusions and recommendations to improve
the economy and efficiency of the Medicare Advantage program.

RECOMMENDATION

We recommend that CMS evaluate these audit results and either:




                                                ii
   •   pursue legislation to adjust the timing of Medicare’s prepayments to MA organizations to
       account for the time that these organizations invest Medicare funds before paying
       providers for medical services or

   •   develop and implement regulations that require MA organizations to reduce their revenue
       requirements in their bid proposals to account for anticipated investment income.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendation because,
in CMS’s judgment, the implementation of either option would cause most MA organizations to
increase their bid proposals to recoup the investment income that they would lose, which would
result in a decrease in most or all of the estimated cost savings. CMS also stated that
implementing either option could create an undesirable precedent that could result in CMS
making additional Parts C and D payments to MA organizations. CMS added that it assumes
that it would be asked to pay interest on the additional payments that CMS frequently makes to
MA organizations after the completion of the risk adjustment reconciliation each year and said
that “[w]e believe a statutory change would be required to impose such an obligation on
CMS ….”

CMS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that our findings and recommendation are valid.
We agree with CMS’s statement that if MA organizations were to increase their bid proposals,
our estimated cost savings would be reduced. However, we disagree with CMS’s assertion that
implementing our recommendation would result in a decrease in most or all of the estimated cost
savings. Specifically, the provisions from the Health Care and Education Reconciliation Act of
2010 that will modify the Medicare Advantage payment structure, as well as the effects of
market competition, may discourage MA organizations from increasing future bid proposals.
Further, any decrease in the estimated cost savings caused by increases in MA organizations’ bid
proposals would be reduced because of the difference between the higher interest earned by the
Medicare trust funds and the lower interest earned by MA organizations.

We agree that if CMS were required to pay interest on additional MA payments made after the
risk adjustment reconciliation, the estimated savings we have identified would be reduced.
However, it is not clear that Congress would enact legislation to require CMS to pay interest on
these additional payments.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicare Advantage Program .......................................................................................1
         Methodology for Centers for Medicare & Medicaid Services Prepayments to
            Medicare Advantage Organizations ..........................................................................1
         Office of Inspector General Audits ................................................................................2
         Government Accountability Office Report Regarding Cash Management ...................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

RESULTS OF REVIEW .............................................................................................................4

      LACK OF POLICIES REGARDING TREATMENT OF INVESTMENT INCOME
        IN THE MEDICARE ADVANTAGE PROGRAM .........................................................5

      TREATMENT OF INVESTMENT INCOME IN
        MEDICARE ADVANTAGE ORGANIZATIONS ..........................................................5

      LOST OPPORTUNITY FOR EARNINGS FOR THE
        MEDICARE PART A AND PART B TRUST FUNDS ..................................................6

       LOST OPPORTUNITY FOR COST SAVINGS
         FOR THE MEDICARE ADVANTAGE PROGRAM .....................................................6

      TREATMENT OF INVESTMENT INCOME IN THE
        FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM.......................................6

      PREVIOUS RECOMMENDATIONS NOT IMPLEMENTED ...........................................7

      CONCLUSION ......................................................................................................................7

      RECOMMENDATION .........................................................................................................8

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........................8

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................8




                                                                     iv
APPENDIXES

   A: SELECTION OF 50 MEDICARE ADVANTAGE ORGANIZATIONS AND
      ESTIMATION METHODOLOGIES

   B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                v
                                              INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Centers for Medicare & Medicaid Services (CMS) finances the Medicare program through
the Federal Hospital Insurance (Part A) and Supplementary Medical Insurance (Part B) trust
funds. The assets of the Part A and Part B trust funds are held in special-issue U.S. Treasury
securities, which earn interest income.

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Managed care
organizations include health maintenance organizations, preferred provider organizations,
provider-sponsored organizations, and private fee-for-service organizations. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 revised Medicare
Part C. Among its changes, this law renamed the Medicare+Choice program the Medicare
Advantage program. CMS finances the Medicare Advantage program from both the Part A and
Part B trust funds.

Federal regulations (42 CFR § 422.254) state that each Medicare Advantage organization 1 (MA
organization) that participates in the Medicare Advantage program must submit an annual bid
proposal containing its anticipated revenue requirements for providing medical services under
each of its plans for the upcoming year. The bid proposal categorizes anticipated revenue
requirements as medical services, nonmedical services, and gain/loss margins.

Pursuant to CMS’s bid proposal instructions, an MA organization is permitted, but not required,
to offset the revenue that it needs to provide Medicare benefits to the average beneficiary by its
anticipated investment income earned on CMS payments. CMS evaluates the bid proposals in
determining the capitation payments (discussed below) that it will make to each MA
organization.

Methodology for Centers for Medicare & Medicaid Services Prepayments to
Medicare Advantage Organizations

Pursuant to the Social Security Act (section 1853(a)(1)(A), 42 U.S.C. § 1395w-23(a)(1)(A)),
CMS makes advance capitated payments (prepayments) to MA organizations for each Medicare
Advantage plan enrollee each month. CMS makes these prepayments at the beginning of the
month based on the most current information available. If CMS receives demographic or health
status information that would increase or decrease the previous monthly prepayments, it makes
retroactive adjustments to correct the payment level. 2 Thus, each month CMS makes
1
  Federal regulations (42 CFR § 422.2(3)) define MA organization as “a public or private entity organized and
licensed by a State as a risk-bearing entity … that is certified by CMS as meeting the MA contract requirements.”
2
 CMS makes retroactive adjustments for changes in demographic status on a monthly basis and for changes in
health status generally in August of each year.



                                                         1
prepayments to MA organizations and retroactive adjustments (both positive and negative) to
correct previous prepayments to those organizations.

MA organizations must use these prepayments to arrange and pay for all medically necessary
services that are allowable in the traditional Medicare fee-for-service program. MA
organizations may invest these Medicare funds in interest-bearing instruments until the funds are
needed to pay for medical and administrative services. Federal law does not currently limit the
ability of MA organizations to retain as additional revenue the investment income earned on
Federal funds.

During calendar year (CY) 2007, CMS paid 457 MA organizations approximately $69 billion in
prepayments, which was financed by the Part A and Part B trust funds.

Office of Inspector General Audits

In a report issued August 18, 2000, 3 we identified more than $100 million of investment income
that Medicare+Choice organizations earned on payments of approximately $20 billion in
CY 1996. In that report, we noted that Federal requirements governing the Federal Employees
Health Benefits (FEHB) program limited the ability of insurance companies participating in the
program to generate and retain investment income. Because Federal requirements did not limit
the ability of Medicare+Choice organizations to retain investment income, we recommended that
CMS pursue legislation to address the timing of Medicare’s prepayments to Medicare+Choice
organizations or reduce the payment rates by the amount of investment income. In its comments
on the report, CMS indicated that it did not intend to propose such legislation.

As a followup to our previous audit, we performed audits at 50 MA organizations nationwide to
estimate the investment income earned from Medicare funds received in CY 2007 and thereby
estimate the investment income that the 457 MA organizations earned.

Government Accountability Office Report Regarding Cash Management

In January 2009, the Government Accountability Office (GAO) issued a report 4 concerning the
financial impact of the differences between the time that the U.S. Department of the Treasury
(Treasury) receives cash to fund a program and the time that it disburses cash to the program.
GAO reported that payments made at the beginning of the month, including payments to MA
organizations, contributed to misalignment of cash flows because Treasury did not receive much
of its cash until midmonth. GAO recommended that Treasury and CMS “… expeditiously
convene a joint interagency effort to study options identified by GAO and any other options that
would improve Treasury’s ability to manage cash flow and reduce overall interest costs while not
unduly increasing administrative burden for CMS.” Both Treasury and CMS agreed with GAO’s
recommendation.

3
 Results of the Audit of Investment Income Earned by Managed Care Organizations With Risk-Based Contracts
(A-02-98-01005).
4
 GAO-09-118, Debt Management: Treasury’s Cash Management Challenges and Timing of Payments to Medicare
Private Plans, January 30, 2009.


                                                      2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to estimate the financial impact on the Medicare program of limiting the
ability of MA organizations to retain investment income earned on Medicare funds.

Scope

We reviewed the approximately $69 billion of prepayments made to 457 MA organizations
during CY 2007. We identified 460 MA organizations that CMS categorized as health
maintenance organizations, preferred provider organizations, provider-sponsored organizations,
or private fee-for-service organizations. However, we did not review 3 of the 460 MA
organizations at the request of the Office of Inspector General (OIG), Office of Investigations.

We did not review CMS’s system of internal controls because our objective did not require us to
do so.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed Federal requirements to understand:

            o how CMS earns interest income from the assets held in the Medicare Part A and
              Part B trust funds and how CMS makes payments to MA organizations and

            o how companies participating in the FEHB program manage cash.

   •    We interviewed, in the performance of the 50 OIG audits, CMS and MA organization
        officials to gain an understanding of the treatment of investment income for the Medicare
        Advantage program.

   •    We reviewed the findings and recommendations of the GAO report regarding cash
        management.

   •    We accessed CMS’s Web site to identify the MA organizations that participated in the
        Medicare Advantage program during CY 2007.

   •    We accessed CMS’s Medicare Advantage and Prescription Drug system to identify the
        total prepayments that MA organizations received during CY 2007.

   •    From the 2008 Annual Report of the Boards of Trustees of the Federal Hospital
        Insurance and Federal Supplementary Medical Insurance Trust Funds, we determined
        the effective annual rates of interest earned by the assets of the Part A and Part B trust
        funds for CY 2007.


                                                  3
   •   We analyzed the results of our 50 OIG audits of MA organizations to make estimates
       regarding the investment income earned ($376 million) and the average number of days
       (46 days) that the 457 MA organizations held funds until paying providers for medical
       services. Appendix A contains details on how we selected the 50 MA organizations and
       the estimation methodologies that we used.

   •   We calculated the interest income that the trust funds could have earned if CMS had
       delayed its prepayments to MA organizations. To make these calculations, we used the
       total prepayments, the effective annual rates of interest earned by the assets of the trust
       funds, and the estimated average number of days (46) that the 457 MA organizations held
       funds until paying providers for medical services.

   •   We discussed the results of our review with CMS officials on November 5, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Because Federal requirements governing the Medicare Advantage program do not limit the
ability of MA organizations to retain investment income earned on Medicare funds, the Medicare
program loses potential cost savings. Based on our reviews of 50 MA organizations, the
Medicare program continues to lose potential savings because in CY 2007 the 457 MA
organizations held Medicare funds for approximately 46 days before paying for medical services.
Specifically:

   •   If Federal requirements had been established to delay the prepayments to MA
       organizations until after the beginning of the beneficiary’s coverage period (similar to the
       FEHB program) by the same 46 days that MA organizations held Medicare funds, the
       Medicare Part A and Part B trust funds could have earned approximately $450 million of
       interest income in CY 2007.

   •   Alternatively, if Federal requirements had been established to require MA organizations
       to reduce their revenue requirements in their bid proposals to account for anticipated
       investment income, the Medicare program could have saved an estimated $376 million
       that the 457 MA organizations earned in CY 2007.

In contrast to the Federal requirements that govern the Medicare Advantage program, the FEHB
program limits the ability of companies to retain as additional revenue the investment income
earned from Federal funds.

Neither of our legislative or regulatory recommendations from our previous audit report was
implemented: that CMS either address the timing of its prepayments to MA organizations or


                                                4
reduce the payment rates by the amount of investment income that the MA organizations earned
in CY 1996.

In this context, MA organizations and CMS officials have stated that if either of our previous
legislative or regulatory recommendations were to be implemented, some MA organizations
would increase their bid proposals to recoup investment income that they would lose. If the MA
organizations were to increase their bid proposals to account for the proposed offsets, these
higher costs would be recognized in the bid proposals and could result in a possible decrease in
our estimated cost savings. However, this could provide greater transparency for program
officials. It should be noted that section 1103 of the Health Care and Education Reconciliation
Act of 2010, P. L. No. 111-152, has a provision to restrict the total amount of administrative
costs reimbursed by CMS to MA organizations. Consequently, this provision may discourage
MA organizations from increasing their future bid proposals to recoup investment income that
they would lose.

We therefore encourage CMS to study these audit results, consider the impact of the investment
income earned on Medicare funds, and review our conclusions and recommendations to improve
the economy and efficiency of the Medicare Advantage program.

LACK OF POLICIES REGARDING TREATMENT OF INVESTMENT INCOME
IN THE MEDICARE ADVANTAGE PROGRAM

Federal requirements governing the Medicare Advantage program do not limit the ability of MA
organizations to retain investment income earned on Medicare funds. Specifically, neither
Federal regulations nor CMS guidelines require organizations to include anticipated investment
income earned on Medicare funds in their bid proposals.

TREATMENT OF INVESTMENT INCOME IN
MEDICARE ADVANTAGE ORGANIZATIONS

As a followup to our 2000 audit of CY 1996 Medicare funds, we performed audits at 50 MA
organizations nationwide to (1) determine whether the MA organizations, in their 2007 bid
proposals to CMS, reduced their anticipated revenue requirements by any anticipated investment
income and (2) estimate the investment income that these 50 MA organizations earned from
Medicare funds received in CY 2007.

We found that 48 of the 50 MA organizations did not reduce their anticipated revenue
requirements by anticipated investment income in their bid proposals for CY 2007. Two of the
MA organizations stated that they made such reductions in their bid proposals. However, only
one of these two MA organizations was able to document that it had reduced the amount of
anticipated investment income in its 2007 bid proposal. We also found that the 50 MA
organizations earned approximately $179 million of investment income from Medicare funds
received in CY 2007.




                                               5
We used the results of these 50 audits to determine that, in the aggregate, the 457 MA
organizations invested Medicare funds in interest-bearing instruments for approximately 46 days
before paying providers for medical services.

LOST OPPORTUNITY FOR EARNINGS FOR THE
MEDICARE PART A AND PART B TRUST FUNDS

If Federal requirements had been established to delay the prepayments to MA organizations until
after the beginning of the beneficiary’s coverage period (similar to the FEHB program) by the
same 46 days that the MA organizations held Medicare funds, the Medicare Part A and Part B
trust funds could have earned approximately $450 million of interest income in CY 2007.

We calculated this potential interest income with the assumption that the Federal Government
would have invested its total prepayments to MA organizations ($69 billion) in interest-bearing
instruments for 46 days at rates equal to the effective annual rates of interest that the Medicare
Part A and Part B trust funds earned (5.3 percent and 5.0 percent, respectively) in CY 2007.

LOST OPPORTUNITY FOR COST SAVINGS
FOR THE MEDICARE ADVANTAGE PROGRAM

If Federal requirements had been established to require MA organizations to reduce their revenue
requirements in their bid proposals to account for anticipated investment income, the Medicare
program could have saved an estimated $376 million that the 457 MA organizations earned by
investing the prepayments for approximately 46 days in CY 2007.

We estimated the potential savings of $376 million for the 457 MA organizations using the
results of our follow-up audits of 50 MA organizations, in which we found that the 50 MA
organizations earned approximately $179 million of investment income from Medicare funds.
Appendix A contains the details of our estimation methodologies.

Under CMS’s bid proposal instructions, 5 CMS provides MA organizations the option to make
reductions in their bid proposals for anticipated investment income. However, only 2 of the 50
MA organizations that we audited stated that they made such reductions in their bid proposals.
Thus, we conclude that for the Federal Government to recognize savings in this manner,
organizations must be required to reduce revenue requirements for anticipated investment
income.

TREATMENT OF INVESTMENT INCOME IN THE
FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

Unlike the Medicare Advantage program, the FEHB program limits the ability of companies to
retain as additional revenue the investment income earned from Federal funds. The U.S. Office
of Personnel Management (OPM) pays insurance companies offering managed care coverage
through the FEHB program after the start of the employees’ insurance coverage periods (as
provided for in OPM’s FEHB program Carrier Handbook, chapter VII). As a result, insurance
5
    Instructions for Completing the Medicare Advantage Bid Pricing Tool for Contract Year 2007.


                                                          6
companies participating in the FEHB program have more limited opportunities to generate
investment income than MA organizations do. Moreover, if the possibility of earning investment
income exists, OPM’s FEHB regulations (48 CFR §§ 1615.470-1 and 1652.215-71) require that
a clause be inserted in the FEHB carrier contract that requires the carrier to retain all investment
income in the FEHB program’s reserves for use in the operation of the FEHB program. (See
5 CFR § 890.503.)

No such policies limit the ability of MA organizations to retain as additional revenue the
investment income earned from Federal funds.

PREVIOUS RECOMMENDATIONS NOT IMPLEMENTED

In its comments on our 2000 audit report of CY 1996 Medicare funds, CMS agreed that its
policies should hold MA organizations accountable for investment income earned on Medicare
funds and should ensure that this investment income is used to benefit Medicare enrollees.
However, CMS indicated that it did not intend to propose such legislation.

Our review of CY 2007 Medicare funds demonstrated that MA organizations are still not held
accountable for investment income earned on Medicare funds. Although CMS agreed that it
needed policies that could hold MA organizations accountable for investment income earned on
Medicare funds, neither of our legislative or regulatory recommendations from our previous
audit report was implemented: that CMS either address the timing of its prepayments to MA
organizations or reduce the payment rates by the amount of investment income that the MA
organizations earned.

In this context, MA organizations and CMS officials have stated that if either of our previous
legislative or regulatory recommendations were to be implemented, some MA organizations
would increase their bid proposals to recoup investment income that they would lose. If the MA
organizations were to increase their bid proposals to account for the proposed offsets, these
higher costs would be recognized in the bid proposals and could result in a possible decrease in
our estimated cost savings. However, this could provide greater transparency for program
officials. It should be noted that section 1103 of the Health Care and Education Reconciliation
Act of 2010, P. L. No. 111-152, has a provision to restrict the total amount of administrative
costs reimbursed by CMS to MA organizations. Consequently, this provision may discourage
MA organizations from increasing their future bid proposals to recoup investment income that
they would lose.

CONCLUSION

Our findings regarding the Federal requirements governing the Medicare Advantage program for
CY 2007 are the same findings that we reported for CY 1996. Specifically, no Federal
regulations or guidelines limit the ability of MA organizations to retain investment income
earned on Medicare funds. Moreover, for CY 2007, as for CY 1996, the lack of Federal
requirements governing treatment of investment income earned within the Medicare Advantage
program stood in contrast to the Federal requirements governing the FEHB program. As a result,
the financial impact on the Medicare program has increased from CY 1996 to CY 2007. In



                                                 7
CY 1996, the MA organizations held Medicare funds approximately 40 days and earned an
estimated $100 million of investment income. In CY 2007, MA organizations held Medicare
funds for a longer period (46 days) and earned significantly more investment income
($376 million).

We therefore encourage CMS to study these audit results, consider the impact of the investment
income earned on Medicare funds in conjunction with its joint efforts with Treasury to improve
Treasury’s ability to manage cash flow and reduce overall interest costs, and review our
recommendations, which identify mechanisms to improve the economy and efficiency of the
Medicare Advantage program.

RECOMMENDATION

We recommend that CMS evaluate these audit results and either:

   •   pursue legislation to adjust the timing of Medicare’s prepayments to MA organizations to
       account for the time that these organizations invest Medicare funds before paying
       providers for medical services or

   •   develop and implement regulations that require MA organizations to reduce their revenue
       requirements in their bid proposals to account for anticipated investment income.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendation because,
in CMS’s judgment, the implementation of either option would cause most MA organizations to
increase their bid proposals to recoup the investment income that they would lose. Specifically,
CMS said that “[i]f MA organizations were to increase their bid proposals to account for the
proposed offsets, these higher costs would be recognized in the bid proposals and would result in
a decrease in most or all of the estimated cost savings.”

CMS also stated that implementing either option could create an undesirable precedent. CMS
assumes that it would be asked to pay interest on the additional Parts C and D payments that
CMS frequently makes to MA organizations after the completion of the risk adjustment
reconciliation each year. CMS said that “[w]e believe a statutory change would be required to
impose such an obligation on CMS ….” CMS stated that the payment of this interest would
result in a further decrease in estimated cost savings.

CMS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that our findings and recommendation are valid.
We agree with CMS’s statement that if MA organizations were to increase their bid proposals,
our estimated cost savings would be reduced. However, for the following reasons, we disagree




                                                8
with CMS’s assertion that implementing our recommendation would result in a decrease in most
or all of the estimated cost savings:

   •   Section 1102 of the Health Care and Education Reconciliation Act of 2010 will modify
       the Medicare Advantage payment structure in a way that, according to the Congressional
       Budget Office, will significantly decrease payments to MA organizations. This
       modification, coupled with the provision to restrict the total amount of administrative
       costs reimbursed by CMS to MA organizations (section 1103 of the same legislation),
       may discourage MA organizations from increasing future bid proposals to recoup
       investment income that they would lose.

   •   Market competition may create a disincentive for some MA organizations to increase
       their bid proposals. MA organizations can provide additional benefits to their enrollees if
       the MA organizations’ bid proposals are below CMS-established benchmarks. However,
       increases in the bid proposals that either approach or exceed benchmark levels would
       cause decreases to these additional benefits, thus making those plans less attractive to
       enrollees. In its report concerning cash management (GAO-09-118), GAO stated that
       CMS’s Office of the Actuary had noted that some MA organizations might be unwilling
       to increase their bid proposals “if doing so risks losing market share.”

   •   Generally, the Medicare trust funds, through long-term investments, yield higher interest
       returns than what MA organizations earn with short-term investments. Thus, any
       decrease in the estimated cost savings caused by increases in MA organizations’ bid
       proposals would be reduced because of the difference between the higher interest earned
       by the Medicare trust funds and the lower interest earned by MA organizations.

       MA organizations invested the prepaid capitation payments for short terms until the funds
       were needed to pay for medical services. During our review period, the Medicare trust
       funds earned slightly higher interest rates than the MA organizations did. However, after
       our review period, the interest rates for short-term investments were significantly less
       than the effective interest rates for longer-term investments. The short-term commercial
       paper interest rates for CY 2009 ranged from 0.13 percent to 0.45 percent. By contrast,
       the Medicare Part A and Part B trust funds, which hold longer-term investments, earned
       interest in CY 2009 at annual rates of 5.0 percent and 4.4 percent, respectively.

       Consequently, even if MA organizations increased their bid proposals to account for lost
       investment income caused by delayed payments, most of the estimated savings would be
       maintained because the Medicare trust funds realize higher interest rates on their
       investments than do the MA organizations.

We agree that if CMS were required to pay interest on additional Medicare Advantage payments
made after the risk adjustment reconciliation, the estimated savings we have identified would be
reduced. However, it is not clear that Congress would enact legislation to require CMS to pay
interest on these additional payments.




                                                9
APPENDIXES
                                                                                                       Page 1 of 2


    APPENDIX A: SELECTION OF 50 MEDICARE ADVANTAGE ORGANIZATIONS
                    AND ESTIMATION METHODOLOGIES

SELECTION OF 50 MEDICARE ADVANTAGE ORGANIZATIONS

We selected 50 Medicare Advantage organizations (MA organizations) using both judgmental
(30) and random (20) samples. For the 30 judgmentally sampled MA organizations, we selected:

    •   the top 3 MA organizations, based on the number of Medicare enrollees, for each of the 8
        Office of Inspector General (OIG) regions (22 MA organizations) 1 and

    •   8 MA organizations based on the availability of OIG resources.

We then selected a random sample of 20 MA organizations from the 427 remaining MA
organizations (457 total MA organizations less 30 judgmentally selected MA organizations).

ESTIMATION OF POTENTIAL COST SAVINGS
FOR THE MEDICARE ADVANTAGE PROGRAM

We used the results of our 50 audits of MA organizations to estimate the investment income that
the 457 organizations earned on Medicare funds during calendar year (CY) 2007. For these
audits, we estimated the investment income that the MA organizations earned only on the
medical portion of their Medicare funding during 2007. We did not estimate the investment
income that MA organizations may have earned on the remaining portions, which were for
nonmedical services and gain/loss margins. We did not include any retroactive adjustments
made by the Centers for Medicare & Medicaid Services in our estimates of investment income.

In total, the 457 MA organizations earned an estimated $376 million of investment income from
Medicare funds received in CY 2007. This amount consisted of:

    •   $165,798,923 earned by the 30 judgmentally selected MA organizations and

    •   $210,647,001 earned by the 427 remaining MA organizations (estimated using the results
        of the 20 randomly sampled MA organizations).

We used the same time periods and interest rates that we found in our review of the 20 randomly
sampled MA organizations to estimate the earnings of the 407 remaining MA organizations.




1
  We were not able to review two of the top three MA organizations in two of the OIG regions as a result of a
request from the OIG Office of Investigations that we not review certain MA organizations.
                                                                                                      Page 2 of 2


CALCULATION OF POTENTIAL EARNINGS FOR THE
MEDICARE PART A AND PART B TRUST FUNDS

Estimated Number of Days That Medicare Advantage Organizations Held Medicare Funds

The number of days between the MA organizations’ receipt of advance capitation payments
(prepayments) from the Centers for Medicare & Medicaid Services and the MA organizations’
payments to providers for medical services varied for the 50 MA organizations reviewed. To
estimate the average number of days that all 457 MA organizations held Medicare funds in
CY 2007 until they paid their providers, we used:

    •   $61 billion of prepayments that we estimated that MA organizations used to pay for
        medical services; 2

    •   $376 million of estimated investment income; and

    •   an interest rate of 4.93 percent, 3 which we estimated that MA organizations earned when
        they invested Medicare funds.

Overall, we estimated that the 457 MA organizations held the Medicare funds for approximately
46 days before paying medical providers in CY 2007.

Calculation of Potential Interest Income

We calculated the potential interest income with the assumption that the Federal Government
invested its total prepayments to MA organizations ($69 billion) in interest-bearing instruments
for the same 46-day periods and the same annual rates of interest that the Medicare Part A and
Part B trust funds earned (5.3 percent and 5.0 percent, respectively) in CY 2007.

          Potential Interest Earned by Medicare Trust Funds in Calendar Year 2007

                       Total                              Potential
               Trust Payments Effective Annual Number Interest Earned
               Fund (in billions) Interest Rate of Days (in millions)
               Part A   $35.8         5.3%         46       $239
               Part B    33.5         5.0%         46        211
               Total    $69.3                               $450



2
 The $61 billion represents the estimated portion of Medicare funding (from the $69 billion of prepayments) that
MA organizations used to pay for medical services.
3
  For the 50 selected MA organizations, we used 30-day AA Financial Commercial Paper interest rates obtained
from the Federal Reserve to estimate the investment income earned unless the MA organization provided the actual
interest rates earned. To calculate the 4.93 percent, we combined results of the 30 judgmentally selected MA
organizations and the 427 remaining MA organizations (using the results of the 20 randomly selected MA
organizations).
                                                                                                                     Pagelof2


APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 


 ,.p.. . ,
( tB           DEPARTMENT OF H EALTH &: H UMAN SERVICES
 ,~                                                                                        Admi,,;stT<l tor
                                                                                           Was.hington. DC :ro201




             DATE:           OCT 2 B1010

             TO: 	          Daniel R. Levinson 

                            Inspector General 


             FROM : 	       Donald M. Berwick, M.D. 

                            Administrator 


             SUB.JECT: 	 Otlict! o rI nspector General (OIG) Draft Repon: Rollup Review of lnvestmem
                         Income That Medicare Advantage Organizations Earned and Retained From
                         Medicare Funds in 2007 (A-07-IO.OlORO)


             Thank you for the opportunity to review and comment on the subject OIG draft repon, which
             aims to estimate the financ ial impact on thc Mcdicare program of limiting the ability of Medicare
             Advantage (MA) organizations to retain investment income earned on Medicare funds. The Cento::rs
             for Medicare & Medicaid Services (CMS) shares the C IG's concern regarding losing potential
             cost savings a.~iated with the Medicare program. However. we do not agrec with the OIG that
             limi ting the ability ofMA organizations to reta in investment income earned on Medicare funds
             would result in such savings.

             Below is the eMS response to the 0 10 rt:Commendation in the draft report.

             OIG R ecommenda tion

             The OIG recommends that eMS review the CIG's audit findings and either: (1) pursue
             legislation to adjust the timing ofMcdicare's prepayments to MA organizations to account fo r
             the time that these organizations invest Medicare funds before paying providers for medical
             services, or (2) de"elop and implement n.::gulations that require MA organi;,:atioms to rcducc thei r
             revenue requirc:mc:nL" in thcir bid proposals to accou nt for anticipated inves tment income.

             e M S Res ponse

             CMS docs not concur wi th the OIG's recommendation. CMS continues to believe that
             implementing either option would cause most MA organizations to increase their bid proposals
             in ordt:rto recoup investment incomt: that they would lose. If the MA organi7.3tions were to
             increase their bid proposals to account for the proposed offsets. thest: higher costs would be
             recognized in the bid p roposals and would result in a decrease in most or all of the estimated cost
             savings. This fact is identified in the report but not reflected in the savings estimate. Therefore,
             we feel that the repon overstates the significance of thb issue since the true savings would be a
             fraction of the amount cited in the draft repon.
                                                                                                      Page2of2




Page 2- Daniel R. Levinson


In addition, eMS believes thai either option could create an undesirable precedenl lhat resul ts in
eMS making additional Part C and D payments to MA organizations. CMS is statutorily
requi red to reconcile the different components of payments to these organiz3Iions. After
reconci liation is complete, eMS frequently owes plans. For example. risk adjustment
reconciliation lakes place in August. CMS pays plans additional Part C and D payments based
on additional risk adjustment data that we receive fro m plans. It is reasonable to a~sume that
CMS would be asked to pay interest on these funds if we implemented either option
recommended by the OIG. We believe a statutory change would be requi red to impose such an
obligation on CMS. however, if eMS were required to pay interest on these funds. as plans are
required to payor otherv.'ise account for interest on retained Medicare funds, it would likely
result in a further decreasc. in the estimated cost savings.

For these reasons. eMS does oot agree with the OIG that limiting the abil ity ofMA
organizations 10 relain investment income earned on Medicare funds would result in savings to
the Medicare program.

We appreciate the effort that went into th is report. Again, we thank the OIG for the opportunity
to review and comment.
